CONTRATO PLAN DE CUENTAS ROTATIVAS
Este Contrato de Plan de Cuentas Rotativas (en adelante Contrato) constituye el acuerdo entre usted como persona que
acepta este contrato y a nombre de quien se emite la Tarjeta de Crédito (en adelante Tarjetahabiente o Portador) y la Asociación de
Empleados del Estado Libre Asociado de Puerto Rico (en adelante AEELA) como entidad acreedora de su cuenta y emisora de su
Tarjeta de Crédito. Mediante su firma, usted reconoce que ha recibido y leído este documento, y acepta las cláusulas,
términos y condiciones que rigen el uso de la tarjeta de crédito y su cuenta con AEELA, según se detallan a continuación:
1. USO, COMPRAS Y ADELANTOS EN EFECTIVO - El uso del número de cuenta de la Tarjeta de Crédito MasterCard AEELA
(en adelante Tarjeta) sin actualmente presentar la Tarjeta, constituye un uso de la Tarjeta. El Tarjetahabiente podrá usar la Tarjeta
para comprar o alquilar mercancías y servicios, o para cualquier otro uso autorizado por AEELA de tiempo en tiempo, en cualquier
establecimiento donde se acepte la Tarjeta. El Tarjetahabiente entiende y está de acuerdo que la Tarjeta no podrá ser utilizada para
fines comerciales, corporativos ni ilegales. Sin embargo, siempre será responsable de cualquier transacción que realice, aunque esté
en violación de ley o de este Contrato. El Tarjetahabiente podrá recibir adelantos en efectivo o realizar transferencias de balances,
sujeto a los límites que de tiempo en tiempo fije AEELA y a la disponibilidad de fondos en su cuenta. Como medida de seguridad,
AEELA puede limitar y bloquear el uso de la tarjeta en cualquier comercio, jurisdicción, país y otros que se identifique que existe un
alto riesgo de fraude. El Tarjetahabiente entiende que, el uso de la Tarjeta fuera de Puerto Rico será bloqueado y deberá notificar
cuando vaya a efectuar un viaje para proveerle el acceso que necesite. La notificación la hará a la información de contacto que
aparece al final de este Contrato o al correo electrónico informatuviaje@aeela.com. El Tarjetahabiente adeudará a
AEELA la suma cargada a su cuenta por el uso de la Tarjeta, más cualquier Cargo por Financiamiento que se determine, la cual será
pagadera en moneda del curso legal de los Estados Unidos de América, en su totalidad o en plazos mensuales, de conformidad con las
disposiciones expuestas en este Contrato.
2. LÍMITE DE CRÉDITO - El límite de crédito concedido por AEELA para la cuenta del Tarjetahabiente aparecerá en una
notificación que se le enviará por correo, y sucesivamente en cada estado de cuenta. El Tarjetahabiente acuerda que AEELA podrá
cambiar el límite de crédito de tiempo en tiempo a base de la evaluación del crédito o por cualquier otro motivo legal o contractualmente
aplicable. AEELA se reserva el derecho de cancelar, cambiar o rescindir su disponibilidad de crédito en cualquier momento, lo cual le será
notificado en su estado de cuenta o en una comunicación por separado. Cuando una transacción cause que el balance de su
cuenta sobrepase el límite de crédito, AEELA se reserva el derecho de aprobarla. En tal caso, el exceso del límite de crédito
deberá ser pagado de inmediato por el Tarjetahabiente como parte de su pago mínimo, el cual se le indicará en el estado de
cuenta. El Tarjetahabiente reconoce que el exceso aprobado no representa una solicitud de aumento del límite de crédito, por lo
que para cambiarlo, deberá solicitarlo por escrito a AEELA y la aprobación estará sujeta a la evaluación del crédito en ese momento.
3. PAGO MÍNIMO – El Tarjetahabiente podrá pagar el nuevo balance que indique el estado de cuenta en su totalidad o en plazos
mensuales. De efectuar el pago en plazos mensuales, el pago mínimo se le indicará en el estado de cuenta, según el balance de la
Tarjeta, de la manera siguiente:
NUEVO BALANCE
Desde		
$0.01			
$25.01			
$500.00		
$1,200.00
$3,000.00		
$5,000.00		

Hasta
$25.00
$499.99		
$1,199.99
$2,999.99
$4,999.99
Límite de Crédito
Disponible

Pago Mínimo Mensual
El Nuevo Balance
$25.00
1/36 parte del nuevo balance
1/40 parte del nuevo balance
1/48 parte del nuevo balance
1/60 parte del nuevo balance

El pago mínimo puede incluir cualquier cantidad vencida, el total de la cantidad utilizada en exceso del límite de crédito
autorizado y cualquier cargo por mora.
4. APLICACIÓN DE LOS PAGOS – El Tarjetahabiente podrá pagar el balance total o cualquier parte de éste, mayor que el pago
mínimo mensual requerido, en o antes de la fecha de pago notificada en el estado de cuenta. Si el Tarjetahabiente pagara el pago
mínimo requerido en el estado de cuenta, dicho pago será aplicado primero a los cargos por financiamiento y el remante se aplicará
proporcionalmente al balance del principal adeudado por concepto de “mercancías y servicios”, “adelantos en efectivos” y “transferencias
de balances”. Si el Tarjetahabiente efectúa un pago en exceso del “pago mínimo” requerido, el exceso se aplicará primero al balance con
la tasa periódica más alta y el remanente se aplicará a los balances con la tasa periódica menor en orden descendente.
5. ESTADO DE CUENTA - Mensualmente AEELA le enviará al Tarjetahabiente un estado de cuenta a la dirección registrada en
sistema, mientras haya transacciones o un balance adeudado durante el período de facturación. Éste le indicará, según aplique, lo
siguiente: balance anterior, pagos y créditos, débitos, compras de mercancía y servicios, adelantos en efectivo, transferencia de
balance efectuadas durante el período en cuestión, el cargo por financiamiento, la tasa de porcentaje expresada mensual y
anualmente, el balance nuevo, el pago mínimo, la fecha en que vencerá el pago, información que indica cuánto tiempo le tomará
saldar el balance adeudado si sólo efectúa el pago mínimo requerido mensualmente, información que indica cuál sería el pago mínimo
AEELA - 147.1 pdf
5 - 2019 (Rev.)

Página 1 de 6

requerido para saldar el monto adeudado en 3 años, así como un desglose de los intereses y los cargos mensuales y acumulados,
desde el comienzo del año en curso hasta la fecha de facturación y cualquier otra información que por ley o reglamento se nos requiera
o entendamos necesaria incluir.
6. CUENTAS CONJUNTAS – Titulares de cuentas conjuntas serán solidariamente responsables por el total de la cantidad adeudada en
la cuenta. AEELA podrá requerir la comparecencia y firma de todos los tarjetahabientes para procesar ciertas instrucciones o solicitudes
que incluyen, pero no se limitan a (1) solicitud de aumento o reducción de línea de crédito, (2) emisión de tarjetas adicionales, y (3)
cambio de dirección a la cual se envía el estado de cuenta.
7. DERECHOS DE FACTURACIÓN
Este aviso le informa sobre sus derechos y nuestras responsabilidades bajo el Fair Credit Billing Act.
¿Qué hacer si encuentra un error en su estado de cuenta?
Si entiende que existe un error en su estado de cuenta, escríbanos a la dirección que aparece al finalizar este Contrato. En su carta
debe incluir la información siguiente:
•
•
•

Información de la cuenta: Su nombre y número de cuenta.
Cantidad en dólares: La cantidad en dólares del error que usted entiende fue cometido.
Descripción del problema: Si entiende que existe un error en su estado de cuenta, describa lo que considera que está incorrecto
y por qué piensa que existe un error.

Usted deberá comunicarse con nosotros:
•
•

Dentro de los 60 días después de que el error haya aparecido en su estado de cuenta.
Por lo menos 3 días laborables antes de programar un pago automático si quiere detener el pago de la cantidad que
estima incorrecta.

Debe notificarnos por escrito cualquier posible error. Puede llamarnos, pero si lo hace no estaremos requeridos a investigar cualquier
posible error y puede que usted tenga que pagar la cantidad en controversia.
¿Qué sucede después que recibimos su carta?
Cuando recibimos su carta, deberemos hacer dos cosas:
1.
2.

Dentro de los 30 días de recibir su carta, debemos informarle que hemos recibido la carta. También le informaremos si hemos
corregido el error.
Dentro de los 90 días de recibir su carta, debemos corregir el error o explicarle por qué entendemos que la factura está correcta.

Mientras investigamos si existe o no un error:
•
•
•
•

No podemos tratar de cobrarle la cantidad en cuestión ni reportarlo como delincuente de dicha cantidad.
El cargo en cuestión puede permanecer en su estado de cuenta, y podemos continuar cobrándole intereses por esa cantidad.
Aunque usted no tiene que pagar la cantidad en cuestión, sí es responsable por el resto del balance.
Podemos aplicar cualquier cantidad no pagada contra su límite de crédito.

Después de concluida nuestra investigación, una de dos cosas sucederá:
•
•

Si cometimos un error: Usted no tendrá que pagar la cantidad en cuestión, ni los intereses ni otros cargos relacionados con
dicha cantidad.
Si entendemos que no cometimos un error: Usted tendrá que pagar la cantidad en cuestión, así como los intereses y cargos
aplicables. Le enviaremos un estado de cuenta que incluya la cantidad adeudada por usted y la fecha de vencimiento del pago.
Si usted no paga la cantidad que nosotros entendemos que usted debe, entonces podemos reportarlo como delincuente.

Si recibe nuestra explicación, pero aun así considera que nuestra factura está incorrecta, debe escribirnos dentro de 10 días
informándonos que todavía se rehúsa a pagar. Si lo hace, no podemos reportarlo como delincuente sin informar, además, que usted
cuestiona su factura. Debemos indicarle el nombre de cualquiera a quien hayamos informado que usted está delincuente y debemos
darle a conocer a dichas organizaciones cuando la situación se resuelva entre nosotros.
Si no seguimos todas las reglas establecidas previamente, usted no tiene que pagar los primeros $50 de la cantidad que cuestionó,
incluso si su factura está correcta.
Sus derechos si no está satisfecho con las compras realizadas con su tarjeta de crédito
Si usted no está satisfecho con la mercancía o servicios comprados con su tarjeta de crédito, y ha tratado de buena fe de solucionar el
problema con el comerciante, puede que usted tenga derecho a no pagar el resto de la cantidad adeudada de la compra.
AEELA - 147.1 pdf
5 - 2019 (Rev.)

Página 2 de 6

Para ejercer este derecho, todo lo siguiente debe ser cierto:
1.

2.
3.

La compra debe haberse realizado en el estado (territorio) de su residencia o dentro de las 100 millas de su dirección
postal actual, y el precio de la compra debe haber sido mayor a $50. (Nota: Ninguna de estas dos condiciones son necesarias
si su compra se basó en una promoción que le enviamos por correo o si somos propietarios de la compañía que le vendió los
bienes o los servicios.)
Usted tiene que haber utilizado su tarjeta de crédito para efectuar la compra. Las compras realizadas con adelantos de
efectivo de un cajero automático (ATM) o con un cheque con acceso a su cuenta de tarjeta de crédito no califican.
No debe haber pagado aún la compra en su totalidad.

Si todos los criterios antes mencionados se cumplen y aun así usted no está satisfecho con la compra, escríbanos a la dirección que
aparece al finalizar este Contrato.
Mientras investigamos, aplican las reglas mencionadas anteriormente. Luego de concluida nuestra investigación, le informaremos
nuestra decisión. En ese momento, si pensamos que usted debe una cantidad y no la paga, podemos reportarlo como delincuente.
8. REEMBOLSOS – En caso de devoluciones o ajustes de mercancías y/o servicios, el Tarjetahabiente aceptará que se efectúen
créditos a su cuenta en lugar de reembolsos en efectivo. Cuando la cuenta tenga un balance crédito, el Tarjetahabiente puede solicitar un
reembolso en cualquier momento. Si no solicita el reembolso, AEELA aplicará el crédito a las transacciones nuevas. El Tarjetahabiente
reconoce que AEELA no pagará intereses a cuentas en balance crédito.
9. DENEGACIÓN DE LA TARJETA – AEELA no será responsable si una compra, adelanto en efectivo o transferencia de balance
no es autorizada por AEELA a un tercero; aun cuando el Tarjetahabiente tenga crédito disponible. AEELA podrá limitar el número de
compras, adelantos en efectivos y transferencias de balances aprobados durante un día, por seguridad u otras razones. Si AEELA
detecta actividad poco usual o sospechosa en su cuenta, podrá suspender temporalmente su crédito o cambiar el número de cuenta
hasta que se verifique la legitimidad de la transacción. El Tarjetahabiente reconoce y acepta que AEELA no tendrá responsabilidad ni
obligación alguna por la denegación de una transacción o por las comunicaciones, actos y omisiones de los establecimientos,
incluyendo su negativa a aceptar la Tarjeta. Tampoco somos responsables de las transacciones recurrentes programadas a favor de
terceros si su cuenta se cierra, se suspende, cambia el número de cuenta o fecha de expiración. El Tarjetahabiente debe comunicarse
con el tercero para notificar el cambio relacionado a la cuenta.
10. TARJETAS EXTRAVIADAS, PERDIDAS O HURTADAS - Si la Tarjeta se extraviara o fuera robada o el Tarjetahabiente sospecha
que alguien puede hacer uso de ésta o de su número de cuenta sin su autorización, deberá notificar inmediatamente a AEELA a la
dirección que aparece al final del Contrato o por teléfono al (787) 641-4432 o fuera de horas laborables al (787) 751-0786. Si la Tarjeta
fuese utilizada por una persona no autorizada, el Tarjetahabiente podrá ser responsable hasta una cantidad que no excederá de $50
por transacciones que ocurran antes de que notifique a AEELA. El Tarjetahabiente no será responsable de las transacciones por uso no
autorizado después de notificar a AEELA.
11. CANCELACIÓN – La Tarjeta es propiedad de AEELA, la que tendrá derecho, sin previo aviso y sin responsabilidad alguna, a revocar
la misma, así como los privilegios que ella conlleva en cualquier momento y el Tarjetahabiente se obliga al serle requerido a entregar a
AEELA cualquier Tarjeta emitida, destruida. En caso de que el Tarjetahabiente radique una petición de quiebra, se separe del servicio
público y deje de ser socio de AEELA, se compromete a devolver la Tarjeta a AEELA, destruida. La revocación o terminación de este
Contrato no afectará las obligaciones existentes al momento de la terminación. El Tarjetahabiente continuará siendo responsable por el
pago de cualquier balance adeudado al momento de la cancelación.
12. VENCIMIENTO ACELERADO - AEELA, a su opción, podrá declarar el balance total de la cuenta vencido y pagadero
inmediatamente de ocurrir cualquiera de las condiciones siguientes:
A. Cuando el Tarjetahabiente falte en el pago de tres plazos consecutivos.
B. Cuando el Tarjetahabiente falte en el pago de uno o más plazos vencidos, si en dos o más ocasiones anteriores había dejado de pagar
dos o más plazos consecutivos y en dichas ocasiones se había rehabilitado totalmente en el pago de los plazos vencidos.
C. Cuando el Tarjetahabiente después de haber dejado de pagar uno o más plazos consecutivos presenta un pago parcial de la suma
vencida y después de efectuar ese pago parcial, continúa pagando los plazos futuros a su vencimiento, pero continúa en mora con
respecto al remanente de la suma vencida, durante tres plazos consecutivos posteriormente a la fecha en que efectuó el pago parcial.
D. Cuando el Tarjetahabiente confiese por escrito que no puede pagar sus deudas según vencen.
E. El Tarjetahabiente acepta que AEELA descuente de la cuenta del socio cualquier cantidad adeudada por concepto de la tarjeta de
crédito cuando el socio incumpla los términos y condiciones del servicio.
En caso de cobro por la vía judicial, el Tarjetahabiente se someterá a la jurisdicción y competencia del tribunal de primera instancia
correspondiente. Asimismo, se compromete a pagar las costas del proceso.
13. CONVERSIÓN DE CRÉDITO ROTATIVO ABIERTO A PRÉSTAMO REGULAR – El Tarjetahabiente acepta y conviene que, en caso
de cancelación o revocación de la tarjeta de crédito por cualquier causa, AEELA podrá, a su discreción, convertir el balance adeudado
AEELA - 147.1 pdf
5 - 2019 (Rev.)

Página 3 de 6

de su Tarjeta a un préstamo regular a término fijo. Al momento de la conversión se transferirá el balance total adeudado, incluyendo los
cargos por financiamiento adeudados. El balance así transferido estará sujeto a un tipo de interés que no será mayor que los pagos por
financiamiento que se cobran en el plan de cuentas rotativas. El Tarjetahabiente acepta y conviene que de tener una deuda en atraso
de su tarjeta de crédito y éste solicita un préstamo regular, AEELA podrá cobrar total o parcialmente el balance adeudado, incluyendo los
cargos por financiamiento de dicho préstamo. Si el margen prestatario del Tarjetahabiente es menor al balance adeudado, el préstamo
se podrá procesar por la cantidad máxima en el margen prestatario y la diferencia, a discreción de AEELA: (1) podrá distribuirse en un
plan de pagos hasta saldar el monto de la diferencia o (2) podrá reclamarse por la vía judicial o cualquier otro medio legal que se estime
necesario.
“GRAVAMEN ESTATUTARIO: Por la presente el Tarjetahabiente reconoce que existe un gravamen estatutario sobre el fondo acumulado
de sus aportaciones y dividendos, incluyendo los futuros, que responderán a AEELA por el balance adeudado cuando se incumplen los
términos y condiciones de pago.”
14. CARGOS POR FINANCIAMIENTO – Los cargos por financiamiento se computarán sobre el balance de principal solamente. El
Tarjetahabiente pagará un Cargo por Financiamiento mensual sobre el balance de su cuenta durante el período de facturación, conforme
a lo siguiente:
A. LOS CARGOS POR FINANCIAMIENTO por mercancías y servicios se determinan multiplicando el balance diario promedio
pendiente de pago durante el período comprendido en el estado de cuenta por una TASA PERIÓDICA de 1.0833% por mes,
equivalente a una TASA DE PORCENTAJE ANUAL (APR) DE 13.00%. Los cargos por financiamiento respecto a mercancía y
servicios serán computados a partir de la fecha en que AEELA desembolse el dinero al que vende la mercancía o preste los servicios.
No habrán cargos por financiamiento en mercancías y servicios para los períodos de facturación en que no exista un balance previo, los
pagos y créditos sean iguales o excedan el total del balance nuevo y se reciban en o antes de la fecha de pago establecida en el estado
de cuenta.
B. LOS CARGOS POR FINANCIAMIENTO por adelantos en efectivo se determinan multiplicando el balance diario promedio pendiente
de pago durante el período comprendido en el estado de cuenta por una TASA PERIÓDICA DIARIA de .9083% equivalente a una TASA
DE PORCENTAJE ANUAL (APR) de 10.90%. En el caso de Transferencias de Balances la TASA PERIÓDICA es de .6583% por
mes, equivalente a una TASA DE PORCENTAJE ANUAL (APR) de 7.90%. El cargo por financiamiento respecto a los adelantos en
efectivo y transferencias de balance se computarán desde la fecha en que el Tarjetahabiente y/o las personas autorizadas por éste
reciban dichos adelantos hasta su pago total.
C. LOS CARGOS POR FINANCIAMIENTO podrán variar de tiempo en tiempo, de acuerdo a los cambios en las leyes y/o reglamentos
aplicables o por ofertas promocionales. Dichos cambios y su fecha de efectividad le serán notificados al Tarjetahabiente por escrito,
conforme a lo descrito en este Contrato.
D. A tenor con las leyes o reglamentos aplicables, cualquier variación debidamente notificada en el cargo por financiamiento aplicará a
los balances existentes a la fecha de efectividad del cambio, así como a las transacciones nuevas incluidas en el período de facturación.
E. Los cargos por financiamiento se computarán mediante el método de balance diario promedio. Para obtener el balance diario
promedio tomamos el balance inicial de su cuenta todos los días, agregamos todas las compras nuevas, adelantos en efectivo o
débitos misceláneos y restamos a éstos cualquier pago o crédito recibido o abonado durante el día. Luego, sumamos todos los balances
adeudados de cada día comprendido en el estado de cuenta y dividimos el total por el número de días en el período de facturación. Esto
nos da el balance diario promedio.
15. TASA PROMOCIONAL – Si el Tarjetahabiente se acoge a una tasa promocional (Tasa de Porcentaje Anual “APR” aplicable a los
balances existentes, a nuevas compras de mercancías y servicios, transferencias de balance y adelantos de efectivo cargados a la
cuenta) la misma estará vigente durante el término especificado en la oferta realizada por AEELA.
16. CUOTA ANUAL – Las tarjetas de crédito emitidas por AEELA no conllevan cargos de cuota anual.
17. OTROS CARGOS
A. Cargos por Mora – Se añadirá un cargo de $0.01 a $10.00 al balance existente de compras por cada período de facturación en que
el Tarjetahabiente no efectúe el pago mínimo a la fecha de vencimiento, según se establezca en el estado de cuenta. En ningún caso, el
cargo por mora sobrepasará la cantidad del pago mínimo vencido.
B. Cargos por Cheque o Pago Devuelto – Se añadirá un cargo de hasta $10.00 al balance existente de compras por cada pago
realizado a su Tarjeta que sea devuelto por fondos insuficientes, no disponibles o no cobrados o por cualquier otra razón por la cual el
pago no pueda ser procesado. En ningún caso, el cargo por cheque o pago devuelto sobrepasará la cantidad del pago mínimo vencido.
C. Cargos por Conversión de Moneda – Las tarjetas de créditos emitidas por AEELA no conllevan cargos por conversión de moneda.
18. ENMIENDAS – Los términos y condiciones incluidos en este Contrato pueden cambiar en cualquier momento, de conformidad a
las leyes y reglamentos aplicables, por condiciones de mercado, estrategias operacionales o por cualquier otra razón que entendamos
necesaria. De ocurrir algún cambio, los mismos serán notificados dentro de los términos requeridos por ley o reglamento mediante aviso
escrito al Tarjetahabiente con no menos de 45 días de antelación a la fecha de efectividad. En el caso de que las enmiendas no estén
AEELA - 147.1 pdf
5 - 2019 (Rev.)

Página 4 de 6

AEELA - 147.1 pdf
5 - 2019 (Rev.)

reguladas en alguna ley o reglamento, le informaremos mediante aviso por escrito con por lo menos 15 días de antelación a la fecha de
efectividad. Si el Tarjetahabiente no estuviera de acuerdo con las enmiendas notificadas y desea dar por terminado el Contrato, deberá
notificarlo antes de la fecha de efectividad de la modificación mediante: (a) la devolución de la Tarjeta destruida y (b) la notificación
por escrito a AEELA de su decisión. La falta de notificación por parte del Tarjetahabiente a AEELA o el uso de la Tarjeta, ya sea por
el Tarjetahabiente o por cualquier otra persona autorizada, constituirán una aceptación por parte del Tarjetahabiente de los términos y
condiciones así enmendados.
19. DESACUERDOS – El Tarjetahabiente no está obligado a aceptar la Tarjeta ni será responsable de cargo alguno a menos que
elija aceptarla mediante el uso. Si el Tarjetahabiente no está de acuerdo con alguna cláusula del Contrato y recibe su Tarjeta
por primera vez, tiene 15 días luego de haber recibido el Contrato sin haberla utilizado para devolverla destruida y notificar a
AEELA de su decisión. La falta de notificación por parte del Tarjetahabiente a AEELA o el uso de la Tarjeta, ya sea por el
Tarjetahabiente o por cualquier otra persona autorizada por éste, constituirá una aceptación por parte del Tarjetahabiente de los términos
y condiciones divulgados bajo este Contrato.
20. DISPOSICIONES MISCELÁNEAS
A. AEELA queda autorizada por el Tarjetahabiente a investigar las referencias de crédito del Tarjetahabiente y se reserva el derecho
de expedir o no expedir, renovar o no renovar la Tarjeta, dependiendo de la capacidad de pago y de las referencias de crédito del
Tarjetahabiente.
B. El Tarjetahabiente podrá solicitar tarjetas adicionales bajo el mismo número de su cuenta para ser utilizada por aquellas otras
personas a quienes designe o podrá dar la Tarjeta o su número de tarjeta a cualquier otra persona. En estos casos, el
Tarjetahabiente es responsable del pago total de todas las compras y los adelantos en efectivo que se efectúen mediante el uso de su
cuenta y de los cargos por financiamiento que se generen. Si el Tarjetahabiente desea revocar a una persona autorizada, deberá notificarnos
comunicándose con servicio al cliente.
C. La omisión por parte de AEELA de ejercitar cualquier derecho bajo este Contrato no constituirá una renuncia a dicho derecho.
D. Si alguna cláusula o parte de una cláusula de este Contrato fuese declarada nula por un tribunal o dejase de tener efecto por
disposición legal o reglamentaria, las restantes disposiciones de este Contrato no se afectarán y continuarán vigentes.
E. Este Contrato se regirá e interpretará bajo las leyes y los reglamentos del Estado Libre Asociado de Puerto Rico y las leyes y los
reglamentos federales aplicables.
F. El Tarjetahabiente recibirá un número secreto de 4 dígitos por correo, el cual le permitirá tener acceso a adelantos de efectivo contra
su cuenta a través de cajeros automáticos. El Tarjetahabiente se obliga y compromete a mantener de forma confidencial dicho número
para así evitar el uso de la Tarjeta por parte de personas no autorizadas.
G. El Tarjetahabiente es responsable de notificar a AEELA cualquier cambio de dirección física y/o postal.
21. AVISO AL TARJETAHABIENTE – No firme este Contrato sin leerlo o si el mismo contiene espacios en blancos. Usted tiene
derecho a una copia del mismo. Mediante su firma, usted reconoce que leyó, entiende y acepta los términos y condiciones de este
Contrato. Usted acepta pagarnos todas las transacciones que se registren en su cuenta, así como los cargos por financiamiento y los otros
cargos según se disponen en este Contrato. Usted acuerda liberar e indemnizar a AEELA de toda responsabilidad por daños,
pérdidas o gastos que surjan como resultado de cualquier acción que realice AEELA en cumplimiento con sus instrucciones.
			

Tarjetahabiente 					

Tarjetahabiente

Nombre:

_______________________________________		

_______________________________________

Firma:

_______________________________________		

_______________________________________

Fecha:

_______________________________________		

_______________________________________

Dirección:

_______________________________________		

_______________________________________

		

_______________________________________		

_______________________________________

ASOCIACIÓN DE EMPLEADOS DEL
ESTADO LIBRE ASOCIADO DE PUERTO RICO
AEELA MASTERCARD
PO BOX 70290
SAN JUAN, PUERTO RICO 00936-8290
(787) 641-4432 o (787) 641-2021 Ext. 2040

Firma autorizada AEELA _____________________________________
Página 5 de 6

RESUMEN DE LOS CARGOS

TASA DE INTERÉS Y CARGOS POR INTERESES
Tasa de Porcentaje Anual (APR) en Compras

13.00%

APR para Transferencias de Balance

6.90% APR introductorio por dos años a partir de la fecha de
la transferencia. Al expirar la oferta , aplicará un APR de 7.90%
hasta el saldo del balance transferido.

APR para Adelantos en Efectivo

10.90%

Pago de Intereses

Su fecha de vencimiento es al menos 25 días después del cierre
de cada ciclo de facturación para compras de mercancía y
servicios. No le cobraremos interés alguno en compras. si
paga el saldo completo en o antes de la fecha de vencimiento
de cada mes. Los adelantos en efectivo y las transferencias de
balances no tienen período de gracia, por lo que comenzarán a
acumular intereses desde la fecha de la transacción.

Para consejos del “Consumer Financial
Protection Bureau” relacionados a Tarjetas de
Crédito

Para conocer más acerca de los factores
a considerar cuando solicita o utiliza una
tarjeta de crédito, visite la página de internet
del “Consumer Financial Protection Bureau” en
http://www.consumerfinance.gov/learnmore.

CARGOS

Cuota Anual
Cargos por Transacciones

$0 Cuota Anual

•
•

Transferencias de Balance
Adelantos en Efectivo

Transferencias de balance y/o Adelantos de efectivo: $0

•

Conversión de Moneda

Conversión de Monedas: 0% del monto de la transacción
efectuada en moneda extranjera

Cargos por Penalidad
•
•

Cargo por Mora
Cargo por Cheque o Pago Devuelto

Hasta un máximo de $10
Hasta un máximo de $10

Cómo calculamos su balance: Utilizamos el método llamado “balance diario promedio (incluyendo compras nuevas)”. Refierase
a su Contrato de Plan de Cuentas Rotativas para más detalles.
Derechos de facturación: Información sobre cómo ejercer su derecho a disputar transacciones se incluye en el Contrato de
Plan de Cuentas Rotativas.

AEELA - 147.1 pdf
5 - 2019 (Rev.)

Página 6 de 6

